la
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-11656-JJ
HORACIO SEQUEIRA,
a citizen of the United States of America
Plaintiff-Appellant,
versus
THE REPUBLIC OF NICARAGUA
a foreign country
CITY OF CHINANDEGA, a political subdivision of the
foreign Country of the Republic of Nicaragua,
EDUARDO JOSE CALLEJAS CALLEJAS,
an individual citizen of the United States of America,
ESTRELLITA DEL CARMEN TROZ MARTINEZ,
CHIEF OF PUBLIC RECORDS OF CHINANDEGA
NICARAGUA
Defendants-Appellees.
Appeal from the United States District Court
For the Southern District of Florida
ON PETTTTON(S') FOR REHEARING AND PETITION(S)
FOR REHEARING EN BANC
BEFORE: WILSON, BRANCH, and TJOFLAT, Circuit
Judges. PER CURIAM:
The Petition for Rehearing En Banc in DENIED, no judge
in regular active service on the Court having requested
that the Court be polled on rehearing en banc. (FRAP 35)
The Petition for Panel Rehearing is also denied. (FRAP
40)
ORD-46

2a
APENDIX B
In THE DISTRICT
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-11656
Non-Argument Calendar
D.C. Docket No. l:16-cv-25052-JEM
HORACIO SEQUEIRA
a citizen of the United States of America,
Plaintiff-Appellant,
Versus
THE REPUBLIC OF NICARAGUA,
a foreign country,
CITY OF CHINANDEGA
a political subdivision of the foreign country of the
Republic of Nicaragua,
EDUARDO JOSE CALLEJAS CALLEJAS,
an individual citizen of the United States of America,
ESTRELLITA DEL CARMEN TROZ MARTINEZ,
an individual Chief Public Records of Chinandega,
Nicaragua
CHIEF OF PUBLIC RECORDS OF CHINANDEGA
NICARAGUA
,

Defendants-Appellees.

8a

Appeal from the United States District Court
for the Southern District of Florida
(May 14, 2020)
Before WILSON, BRANCH, and TJOFLAT, Circuit
Judges.
PER CURIAM:
Horacio Sequeira appeals pro se the District Court’s
order dismissing his action against the Republic of
Nicaragua, the City of Chinandega, Eduardo Jose eallejas
callejas, and Estrellita Del Carmen Troz Martinez (
“Troz”) for lack of subject matter jurisdiction. The Foreign
Sovereign Immunities Act ( “FSIA”) “ provides the sole
basis for obtaining jurisdiction over a foreign state in the
courts of this country”. OBB Personenverkehr AG v.
Sachs, 136 S. Ct. 390, 393 (2015)_(quotation marks
omitted). “Under the FSIA a foreign state in
presumptively immune from suit unless a specific
exception applies.” Permanent Mission of India to the
DM City ofN.Y,, 551 U.S. 193,197,127 S. Ct. 2352, 2355 (
2007). The District Court determined that sovereign
immunity barred suit against Nicaragua and Chinandega
and dismissed Sequeira’s amended complaint against
those parties. In additional, because both Callejas and
Sequeira are resident of Florida, the Court dismissed the
action for lack of complete diversity. In broad strokes,
Sequeira alleged that Nicaragua and Chinandega
contracted with Callejas, who in turn contracted with
Sequeira, to illegally take Sequeira’s farmland in
Nicaragua and sell the livestock as meat products in the

4a
United States. Sequeira also sued Troz, the Chief of
Public Records in Chinandega, for her participation in
this alleged scheme.
On appeal, Sequeira alleges that Nicaragua and
Chinandega are subject to suit in the United States
because the purported contract they had with Callejas
included an arbitration provision, thus waiving their
sovereign immunity. He first contends that the District
Court erred in concluding the contract was inauthentic as
it assessed evidence at the motion-to-dismiss stage
instead of weighing the evidence in the. light most
favorable to him. In additional, Sequeira argues that the
District Court erred when it found that Nicaragua and
Chinandega were not subject to suit based on either the
commercial-activity exception or the expropriation
exception to the FSIA. Sequeira also contends that the
District Court erred when it found that, absent FSIA
jurisdiction, there could be no subject matter jurisdiction
over Callejas and Troz due to lack of complete diversity
among the parties. Finally, Sequeira argues that the
magistrate judge abused his discretion in denying
Sequeira’s request for jurisdiction discovery.
We affirm.
L
Sequeira originally filed suit in 2016, alleging that
Appellees had breached a contract, illegally took his
farmland in Nicaragua, and illegally sold his livestock as
meat products. In the complaint, Sequeira alleged that
“Nicaragua through its political subdivision of
Chinandega waived its sovereign immunity by entering
into a private contract with the defendant Eduardo Jose
Callejas Callejas.” The complaint alleged that Sequeira
and Callejas are both domiciled in Florida and that Troz,

5a
the Chief of Public Records in Chinandega, is a resident of
Nicaragua.
The District Court dismissed that the complaint for
lack of subject jurisdiction because there were no
allegations that a contrast existed between Nicaragua and
Sequeira. Furthermore, the Court concluded that it lacked
subject matter jurisdiction over Sequeira’s other claims
because the parties were not completely diverse.
Sequeira moved leave to amend his complaint. In his
motion, Sequeira included a translated declaration from
Mariano Guerra Morales (“Guerra”) who purported to be
the Executive Director of the Cattle Raising Program
under the Nicaraguan Rural Development (“IDR”).
Guerra’s declaration claimed that in 2001 Or 2002,
Nicaragua, through the IDR, entered a contract with
Sequeira and others to raise livestock at the El Pital farm.
Sequeira did not provide a copy of the contract. He did
provide a copy of rental agreement between himself and
Callejas, which reference an agreement between
Sequeira, Nicaragua, and the IDR. The District Court
granted Sequeira’s motion for leave to amend.
In his amended complaint, sequeira alleges that
Nicaragua waived its sovereign immunity because the
IDR contract included an arbitration provision, and that,
therefore, the District Court has subject matter
jurisdiction. He also alleges that the Appellees engaged in
commercial activities in the United States, including
selling meat products in the United States, retaining and
paying American attorney, paying the salary of “front
men” located in the United States, and because Callejas
paid rent from Florida. Sequeira alleges that Troz and
Callejas acted on behalf of Nicaragua and Chinandega to
illegally take his property.

6a
The Appellees moved to dismiss. Callejas moved to
dismiss each claim as being barred by the statute of
limitations. Nicaragua, Chinandega and Troz moved to
dismiss for lack of subject matter jurisdiction, lack of
personal jurisdiction, failure of service of process,
improper venue, and failure to state claim. In their
motion to dismiss, Nicaragua and Chinandega submitted
several declarations. Notably, they submitted a
declaration from Miguel Angel Baca Jimenez, a legal
advisor for the IDR record keeping organization, who
found no record of any contract between Sequeira and the
IDR.
Sequeira moved for limited jurisdictional discovery,
seeking to subpoena documents held by the Defendants
attorneys in Washington, inspect records in Nicaragua,
and request admissions from six individuals regarding
Appellees commercial activities in the United States. The
District Court denied the motion, concluding that
sovereign- immunity interests outweighed Sequeira’s
vague and improper requests for discovery.
In his response to the motions to dismiss, Sequeira
repeated his jurisdictional arguments and submitted a
translation of a purported modification to his alleged
contract with the IDR He did not submit a copy of the
original contract, nor did he submit a copy of the original
modifications.
Thereafter, the Court dismissed Sequeira’s amended
complaint, finding that it lacked subject matter
jurisdiction. Sequeira appeals.
II.
A plaintiff who seeks to sue a foreign state has the
burden of establishing subject matter jurisdictional by
"producing evidence” that one of the FSIA’s sovereign-

7a

immunity exceptions applies. Bulter v. Sukhoi Co., 579
F.3d 1307, 1312-13 (11th Cir. 2009). A district court
determines whether a plaintiff has satisfied this burden
by examining the allegations in the complaint and any
undisputed facts that the parties submit. Id. at 1313, If
the plaintiff satisfies this burden, the foreign state then
has the burden of providing by a preponderance of the
evidence that the exception cited by the plaintiff does not
apply. Id.
We review a district court’s determination that it lacks
subject matter jurisdictional under the FSIA de novo and
its factual findings for clear error. Calzadilla v. Banco
Latino Internacional, 413 F .3d 1285, 1287 (11th Cir.
2005), We consider a factual finding clearly erroneous
when we are left with a “definite and firm conviction that
a mistake has been committed” after reviewing all the
evidence. U.S. Commodity Futures Trading Comm’n v.
Hunter Wise Commodities, LLC, 749 F .3d 967, 974 (11th
Cir. 2014) (quotation marks omitted). We will not consider
a factual finding clearly erroneous if it is plausible based
on the record viewed in its entirety. Odyssey Expl., inc. v.
Unidentified Shipwrecked vessel, 657 F .3d 1159, 1169
(11th Cir. 2011). We will not consider a factual finding
clearly erroneous if is based on one of two permissible
views of the evidence. Commodity Futures Trading
Comm’n v. Gibraltar Monetary Corp., 575 f. 3d 1180, 1186
(11* Cir. 2009).
III.

A.
Sequeira claims that the arbitration provision in the
purported contract between the IDR, Callejas, and him
impliedly waived Nicaragua’s, and thus Chinandega’s,

8a
sovereign immunity.1 The District Court determined that
the purported contract was not authentic. It also
concluded that the signatory of the purported contract
lacked the authority to waive Nicaragua’s and
Chinandega’s sovereign immunities. Sequeira contends
that the District Court improperly weighed the evidence
in favor of the Appellees. We conclude that the District
Court did not clearly err in determining that the contract
was inauthentic
The Appellees challenged the authenticity of the
contract, mounting a factual attack on Sequeira’s
allegations of waiver. In cases involving a factual attack
on subject matter jurisdiction, the district court “is free to
independently weigh facts” and resolve the jurisdictional
issue on the merits, even when there are disputed
material facts. Morrison v. Amway Corp., 323 F .3d 920,
924-25 (11th Cir. 2003) (contrasting the standard of review
used for factual attacks on subject matter jurisdictional
with the standard applied to summary judgment
motions). This means that a district court may go beyond
the four corners of a complaint when determining
whether subject matter jurisdiction exists under the
FSIA See Comparelli v. Republica Bolivariana De Venez.,
891 F.3d 1311, 1322 (11th Cir. 2018).
1 A foreign state can impliedly waive its sovereign
immunity when it (1) agrees to arbitration in another
country, (2) agrees that the law of a particular country
should govern the contract, or (3) files a responsive
pleading without raising sovereign immunity as a
defense. Calzadilla, 413 F.3d at 1287.

9a
The District Court did not err when it determined that
the contract was inauthentic. The District Court’s
conclusion that the submitted document “appears to be a
sham contract created by Plaintiff for the purpose of
defeating dismissal of his complaint” is more than
plausible. As the District Court noted, the timing of
Sequeir’as submission was highly suspect; it was only
after the Court pointed out that there could be no waiver
without an agreement and after Sequeira requested-and
was denied—discovery to find the contract that a copy of
the agreement “magically appeared" in his possession. In
addition, the content of the agreement raises suspicion.
The record supports the District Court’s conclusion that
“specific details believed to satisfy exceptions under the
FSLA or to prevent dismissal were haphazardly compiled
to form a contract." The translated modification includes
suspicious “Insertion of an Arbitration Clause” language
and references an amendment that is not otherwise
mentioned.2 The purported agreement also mandated
arbitration under CAFTA or a “Federal Court in Miami
Florida" but failed to specify what law applies or what
happens when the parties do not agree. The District Court
also found it suspicious that the agreement included a
provision that subsequent agreements need not be
notarized considering the circumstances surrounding a
similar lawsuit by Sequeira’s brother in a different court.8
2 The District Court also found that it was “highly suspect
that Guerra makes no mention of the 2005 amendment in
his purported declaration.” (emphasis in original).
3 Specifically, the Magistrate Judge found that the
provision “appears to be in response to the California
federal court’s finding in Jairo Sequeira’s case that the
contract submitted was void under Nicaraguan law
because it was notarized by Jairo’s brother, the Plaintiff
here. The Undersigned also finds it suspicious that
Plaintiff was the notary for the contract submitted by his

10a
We also note that the substance of the agreement is
questionable. The agreement lacks dear terms and does
not explain why a Nicaraguan—based—cattle-raising
arrangement provided for exdusive distribution to Miami.
Given the record, the District Court did not clearly err
in finding that the contract was inauthentic and,
consequently, the Nicaragua and Chinandega did not
waive their sovereign immunities.
B
The District Court also did not err in conducting that the
commercial-activity exception did not apply. The FSIA
provides that a foreign state is not entitled to sovereign
immunity in any case that is
Based upon a commercial activity carried on in the
United States by the foreign state; or upon an act
performed in the United States in connection with
a commerdal activity of the foreign state
elsewhere; or upon an act outside the territory of
the United States in connection with a commerdal
activity of the foreign state elsewhere and that act
causes a direct effect in the United States[.]
28 U.S.C. §1605(a)(2). A foreign state engages in
commercial activity when it participates in a transaction
as a private party would. Beg v. Islamic Republic of Pak.,
F.Sd 1323, 1325 (11th Cir. 2003). Thus, “Public acts,” such
as takings, are not considered commerdal activities. See
Id. at 1325—26. In addition, for a suit to be “based on”
commercial activities in the United States, the alleged
brother, which was found to be void.” See Sequeira v.
Republic of Nicaragua, No. CV13-4332, 2018 WL
6267835, at *5 (C.D. Cal. Aug. 24, 2018), affd, 791 F.
App’x 681 (9th Cir. 2020).

11a
commercial activity must be “the gravamen” of the
plaintiffs complaint. OBB Personenverkehr, 136 S. Ct at
395 (quotation marks omitted). In ascertaining the
gravamen of a complaint, courts are to focus on the core
conduct giving rise to the suit rather that individually
analyzing the elements of each cause of action. Id. at 396.
This approach prevents plaintiffs from side-stepping the
FSIA’s limitations “through, artful pleading.” Id.
The commercial-activity exception does not apply here
because Sequeira’s amended complaint was based on the
alleged taking of his land, which is not a commercial
activity. See Beg, 353 F.3d at 1326. The other activities
that allegedly occurred in the United States, such as
selling meat and paying “front men,” do not constitute the
“gravamen” of Sequeira’s complaint. See OBB
Personenverkehr, 136 S. Ct. at 395.
C.
The FSIA provides that a foreign state is not entitled to
sovereign immunity in a case where “rights in property
taken in violation of international law are in issue and
that property or any property exchange for such property
is present in the United States in connection with a
commercial activity carried on in the United States for
the foreign state,” 28 U.S.C. §1605(a) (3).
“[A]n amended complaint supersedes and replaces the
original complaint unless the amendment specifically
refers to or adopts the earlier pleading.” Varnes v. Local
91, Glass Bottle Blowers Ass’n, 674 F.2d 1365, 1370 n,6
(11th Cir. 1982). Thus, the allegations in an initial
pleading are abandoned and “no longer a part of the
pleader’s averments” once an amended pleading has been
filed. Dresdner Bank AG v. M/V Olympia Voyager, 463
F.3d 1210, 1215 (11th Cir. 2006) (quotation marks

12a
omitted).
Sequeira did not re-allege in his amended complaint
that the expropriation exception applied. In addition,
Sequeira never requested permission to add such an
allegation to his amended complaint, even though he had
ample time to do so. Therefore, the District Court did not
err when it did not consider the expropriation exception
because Sequeira did not properly raise the expropriation
exception as a possible basis for subject matter
jurisdiction.
III.
Because the District Court did not have FSIA
jurisdiction over Nicaragua and Chinandega, there was no
basis for supplemental jurisdiction over the claims
against Troz and Callejas. The District Court did not have
and independent basis for subject matter jurisdiction as to
the claims against Troz and Callejas because those claims
were based on state law and the parties lacked diverse
citizenship. Thus, the District did not err in dismissing
Sequeria’s complaint.
IV.
We review a district court’s denial of jurisdictional
discovery for abuse of discretion. See United Techs. Corp.
v. Mazer> 556 F.3d 1260, 1280—81 (11th Cir. 2009). This
Standard provides a range of choice for the district court.
Alliant Tax Credit 31 v, Murphy, 924 F.3d 1134, 1145)
(11th. Cir.2019). Accordingly, when applying this
standard, we will affirm unless we find that the district
court made a clear error of judgment or applied the wrong
legal standard. GDG Acquisitions LLC v. Gov't of Belize,
849 F.3d 1299, 1312 (11th Cir. 2017).

/

13a
Ift determining whether jurisdictional discovery should
be permitted against a foreign state, a district court is “to
balance the need for discovery to substantiate exceptions
to statutory foreign sovereign immunity against the need
to protect a sovereign’s or sovereign agency’s legitimate
claim to immunity from discovery” Butler, 579 F.3d at
1314 (quotation marks omitted) (alteration adopted). This
balancing test is designed to ensure that jurisdictional
discovery is used only to confirm specific factual
allegations and does not cause the undue burdens that
foreign sovereign immunity is designed to prevent. Id.
Given the breadth and lack of detail involved in
Sequeira’s request for jurisdictional discovery, it was
reasonable for the District Court to conclude that the
request was not consistent with the permissible scope and
purposes of jurisdictional discovery against a foreign
state. Therefore, the District Court did not abuse its
discretion in denying Sequeir’as request.
V.
Because Nicaragua, Chinandega, and Troz mounted a
factual attack on Sequeira’s stated bases for subject
matter jurisdiction, the District Court was permitted to
rule on the validity of the purported contract and was not
required to weigh the evidence in the light most favorable
to Sequeira. The District Court also appropriately
determined that Sequeira had not demonstrated that
another exception allowed for subject matter jurisdiction.
The District Court also reasonably concluded that
Sequeira’s broad request did not justify jurisdictional
discovery. We affirm.
' AFFIRMED.

14a
APPENDIX C
UNITED SATES DISTRICT COURT
SOURTHERN DISTRICT OF FLORIDA
MIAMI DIVISION
CASE NO. 16-250052-CIV-MARTINEZ/GOODMAN
HORACIO SEQUEIRA,
Plaintiff,
v.
THE REPUBLIC OF NICARAGUA, et aL,
Defendants,
OMNIBUS REPORT AND RECOMMENDATIONS
ON DEFENDATS’ MOTIONS TO DISMISS FIRST
AMENDED COMPLAINT
Pro se Plaintiff Horacio Sequeira file his first amended
complaint against Defendants The Republic of Nicaragua
(“Nicaragua”), City of Chinandega (‘Chinandega”),
Eduardo Jose Callejas Callejas (“Callejas”), and Estrellita
del Carmen Troz Martinez (“Troz”). [ECF N.79]. Plaintiffs
prior complaint was dismissed without prejudice for lack
of subject matter jurisdiction.[ECF Nos.57;69].
Callejas filed a motion to dismiss [ECF No.84], Plaintiff
filed a response [ECF NOS.85;86], and Callejas filed a
reply [ECF No. 88]. Troz also filed a motion to dismiss,
and Plaintiff filed a response.[ECF Nos.87;119].
Nicaragua and Chinandega (the “State Defendants’) filed
a joint motion to dismiss, [ECF No. 89]. Plaintiff
responded in opposition [ECF No. 119], and the State
Defendants filed a reply [ECF No. 124]. United States
Judge Jose E. Martinez referred all pretrial matters to
the Undersigned. [ECF No.82].
For the reasons stated below, the Undersigned
respectfully recommends that the District Court grant

15a
Defendants’ motions [ECF Nos.84;87;89] and dismiss
Plaintiffs first amended complaint without prejudice.
The Undersigned recommends that Judge Martinez find
that the State Defendants are sovereign defendants
immune from suit, and because of this, the Court lacks
federal question jurisdiction. The Undersigned also
recommends that Judge Martinez find that the Court
lacks subject matter jurisdiction over the remaining
individual defendants, Callejas and Troz, based on lacks
subject matter jurisdiction over the remaining individual
Callejas and Troz, based on lack of diversity
jurisdiction.
I.

BACKGROUND
a* Plaintiffs First Complaint

In his first complaint, Plaintiff alleged that he is the
rightful owner of 1000 acres of farmland located in
Chinandega, Nicaragua called “El Pital.” [ECF No, 1,11 1011]. He also claimed that he owns the farm animals that
live on El Pital. [ECF No.l, 1 7]. Although the specifics
were unclear due to Plaintiffs conclusory, inconsistent,
and often incomplete allegations, it appeared that
Plaintiff was alleging that Callejas, an American citizen
and Florida resident, failed to make some unspecified
payments and failed to relinquish control of El Pital.
[ECF No. 1, 11 6,25,30 118-121]. Plaintiff also alleged
that Callejas sent an individual to “invade” El Pital and
that Callejas is responsible for violent attacks and death
threats against Plaintiff [ECF No.l,11 31,87,92,132].
Plaintiff also claimed that Troz, an employee of
Nicaragua’s Office of Public Record, filed forged
documents stating that Callejas was the rightful owner of
El Pital, an action which allegedly interfered with
Plaintiffs supposed contract with Callejas [ECF No. 1,11

16a
I, 30,48-53]. Plaintiff further claimed that Defendants
disobeyed a Nicaraguan court order (which allegedly
found that Plaintiff was the rightful owner of El Pital).
[ECF No. 11 47].
Plaintiff claimed that Callejas and Troz worked
together in carrying out the threats and forgery so that
the State Defendants could take Plaintiffs property from
him. He further alleged that the State Defendants then
sold the seized animal meal from the farm animals at El
Pital
in
the
United
States.
[ECF
No.l,
^ft[29,41,47,51,53,60,66-67]. Plaintiff alleged 14 state law
counts against Defendants.1 [ECF No.l].
Defendants move to dismiss Plaintiffs first complaint.
JECF Nos. 16; 25; 26]. The Undersigned recommended
that Plaintiffs complaint be dismissed. [ECF No. 45].
First, the Undersigned determined that the State
Defendants are sovereign defendants immune from suit
under the Foreign Sovereign Immunities Act (“FSIA”),
and thus the Court lacked federal question jurisdiction.
[ECF No.45, pp.6-7]. Under the FSIA, foreign states and
their agencies or instrumentalities are immune from suit
1 Plaintiff alleged the following count (1) “unlawful
expropriation (illegal taking) of personal and real
property”; (2) conversion; (3) unjust enrichment; (4)
torture; (5) cruel, inhumane, or degrading treatment”; (6)
assault and battery; (trespass to land; (8) trespass to
chattels; (9) intentional interference with prospective
economic advantage and business relationship; (10)
negligent interference with prospective economic
advantage and business relationship; (11) breach of
express written and oral contract and implied-in fact
contract; (12) breach of the implied covenant of good faith
and fair dealing; (13) intentional infliction of emotional
distress; and (14) injunctive relief. JECF No. 1].

17a
in the United Sates unless an FSIA statutory exception
applies. See 28 U.S.C. §§ 1603,1604,1605; Mezerhane v.
Republics Bolivariana de Venezuela, 785 F.3d 545,548
(11th Cir.2015).Plaintiff asserted that the following
exceptions to FSIA immunity applied: waiver,§ 1605(a)(1);
commercial activity, 1605(a)(2); expropriation, 1605(a)(3);
and tort, § 1605(a)(5).[ECF No.l, ff2,5-14].
With regard to waiver, the Undersigned found that
Plaintiff did not allege facts supporting a theory that the
State Defendants explicitly waived, in a contract or
otherwise, their sovereign immunity. [ECF No. 45 pp.1214]. Plaintiff did not allege that he entered into any
contract with Nicaragua and Chinandega, and even if he
had, the Undersigned pointed out that “[t]he contract
would need to contain an applicable arbitration provision
or choice of law provision that proves that the contracting
parties agreed to have lawsuits or arbitrations in the U.S.
or that U.S. law would govern all disputes arising from
the contract.”Id at p.14.
In order to meet the commercial activity exception,
Plaintiff was required to allege conduct by Nicaragua and
Chinandega
Based upon a commercial activity carried on in the
United States by the foreign state; or upon an act
performed in the United States in connection with
a commercial activity of the foreign state
elsewhere; or upon an act outside the territory of
the United States in connection with a commercial
activity of the foreign state elsewhere and that act
causes a direct effect in the United States.
§16G5(a)(2); [ECF No.45, p.14].
Plaintiff did not satisfy this exception. [ECF No.45,
pp.14-18]. The Undersigned found that the gravamen of

18a
Plaintiffs complaint was the alleged illegal taking of his
property in Nicaragua, which is not a commercial activity
and does not have a direct effect in the United States. Id.
The Undersigned found that Plaintiffs claim that the
State Defendants were selling meat in the United States
derived from the livestock located at El Pital did not
satisfy the commercial activity exception because it was
not the gravamen of Plaintiffs complaint, Id.
The expropriation exception applies where it is
alleged that:
Rights in property taken in violation of
international law are in issue and that property or
any property exchanged for such property is
present in the United States in connection with a
commercial activity carried on in the United States
by the foreign state; or that property or any
property exchanged for such property is owned or
operated by an agency or instrumentality of the
foreign state and that ageney or instrumentality is
engaged in a commercial activity in the United
States.
§1605(a)(3); [ECF No.45, p. 18].
The Undersigned found that while Plaintiff made
condusory allegations that the State Defendants sold
animal products in the United States, the alleged taking
did not violate international law because Plaintiffs
allegations stem from the conduct of individual actors, not
the State Defendants. [EFC No.45,pp.23-26].
And finally, as to the tort exception to immunity under
the FSIA, the Undersigned found that none of the State
Defendants were alleged to have engaged in tortious
conduct that occurred in the United States, as in required

19a
under the tort exception^ 1605(a)(5)[ECF No.45, p.26j.
Because the exceptions to the FSIA did not apply, the
Undersigned recommended that the complaint be
dismissed against the State Defendants, [ECF No.45,
p.26] Further, the Undersigned found that because there
was no longer subject matter jurisdiction arising under
the FSIA for Plaintiffs claims, the only possibility for
jurisdiction would be diversity jurisdiction. [ECF No.45,
p.27]. Diversity jurisdiction was found not to exist
because Plaintiff and Callejas were alleged to both be
Florida residents. [ECF No.45, p.28].
Judge Martinez adopted the Undersigned’s Report and
Recommendations, and Plaintiff was given leave to amend
his complaint. [ECF No.p.57; 69;78].
b. Plaintiff’s First Amended Complain
Plaintiff filed his amended complaint and alleges 13
state law claims against Defendants.2 [ECF No.79}.
2 Plaintiff alleges the following counts: (1) unlawful
expropriation or illegal taking of property against
Nicaragua; (2) breach of contract against Nicaragua;
(breach of implied covenant of good faith and dealing
against Nicaragua; (3) breach covenant of good faith and
fair dealing against Nicaragua; (4) breach of contract
against Callejas; (5) breach of implied covenant of good
faith and fair dealing against Callejas; (6) conversion
against Nicaragua, Chinandega and Callejas (7)
restitution against Nicaragua, Chinandega and Callejas
(8) trespass to land against Nicaragua, Chinandega and
Callejas; (9) trespass to chattels against Nicaragua,
Chinandega, and Callejas; (10) intentional interference
with prospected economic advantage and business
relationship against Nicaragua, Chinandega, and
Callejas; (11) negligent interference with prospected

20a
Plaintiff argues that there is subject matter jurisdiction
for his claims against the State Defendants under the
waiver and commercial activities exceptions to the FSIA.
[ECF No. 79, app. 10-18]. Again, Plaintiffs allegations are
disjointed and unclear, but, in substance, he reasserts the
same allegation as his first complaint, i.e.: (1) that El
Pital and the livestock on the property were illegally
taken from him and (2) that Callejas and Troz
participated in “unlawful activities in order to assist
Nicaragua and Chinandega in the illegal taking” of his
property, including by the “rise of death threats, forging
registry documents, [and] disobeying court orders, among
other things.” [ECF No. 79, ^H[17-18, 23,25].
Plaintiff also makes some additional allegations that
appear to be an attempt to address the shortcomings
identified in the Undersigned’s early report and
recommendations. Plaintiff alleges that the State
Defendants took over his
business to engage in
“commercial activities” in the U.S. and that these
activities “are now carried out through Nicaragua’s front
men living in the U.S.A. and are under Nicaragua’s
direction and control.” [ECF No. 79,3].
Plaintiff states that Nicaragua has “transmuted” his
real estate and personal properties by selling his cattle as
meat product in the United States. [ECF No. 79, ^ 20-23]
He also alleges that some of the profits gained by the sale
of his cattle as meat product have been used “to pay for
the Salary of their front men or straw men located in the
U.S.A. to commit illegal activities such as money

economic advantage and business relationship against
Nicaragua, Chinandega, and Callejas; (12) intentional
infliction of emotional distress against Nicaragua,
Chinandega and Callejas.

21a
laund[ering]” and “Nicaragua and Chinandega have used
some attorney f]s trust accounts located in the U.S.A. to
commit such activities.” [ECF No. 79, t 26]. Plaintiff also
states that some of these profits have been used to fund
the State Defendant’s counsel in this matter, Silverio &
Hall. [ECF No. 79, If 49].
Most notably, Plaintiff now alleges that in May 1998,
he entered into a written contract with Instituto de
Desarrollo Rural (“IDR”), and alleged entity of Nicaragua
regarding the raising of cattle and the selling and
exportation of meat into the United States. [ECF No. 791f
45]. In addition, Plaintiff alleges:
[I]n December 2005...Nicaragua and Mr. Sequeira
modified in writing their agreement and included
in it an International Arbitration Clause.... Under
the terms of the contract, Nicaragua agreed to and
clearly revealed its intention to waive its
jurisdiction by agreeing to an international
arbitration in the U.S.A, under the DR-CAFTA’s
rules or under the ICSID’s rules or under any
U.S.A. District Court rules.
[ICFNo. 79, If 45].
As to CaUejas and Troz, Plaintiff further alleges that
Callejas brings Plaintiff’s cattle from El Pital to the
Chinandega slaughterhouse, which is operated by the
Chinandega Registry, where Troz is Chief Registrar. [ECF
No. 79, If 54]. Nicaragua then processes the meat and
sells the beef in the United States. [ECF No. 79, If 64].
Plaintiff also alleges that Callejas sends “monthly
payments” from the U.S. to Chinandega; “[h]owever, he
deducts from that payment part of his salary that
Nicaragua pays him as a front man acting on Nicaragua’s
behalf and for its benefits in the U.S.A” (ECF No. 79,

22a
168].
c. Request for Jurisdictional Discovery
After Defendants moved to dismiss Plaintiffs
first amended complaint, Plaintiff moved for
limited jurisdictional discovery to prove disputed
facts relating to subject matter jurisdiction. [ECF
No.95]. Specifically, Plaintiff sought the following
discovery^!) to serve a subpoena on Defendants’
attorneys, (2)to inspect Nicaragua’s records in order
to demonstrate the waiver exception since
Nicaragua has represented that it has no record of
any contract with Plaintiff, and (3) to serve
requests for! admissions to six unidentified
individuals to demonstrate activity exception. [ECF
No.95,ppll-12]. The Undersigned denied the
motion for jurisdictional discovery because Plaintiff
failed to identify what specific facts would be
verified through these requests and because, even if
he had, his proposed requests were improper. [ECF
No.l04,p.4].
d. Jairo Sequeira’s California Case
A factually analogous lawsuit was filed in the Central
District of California by Jairo Sequeira, whom Defendants
believe to be Plaintiffs brother. The lawsuit which is
against Nicaragua, Chinandega, another Nicaraguan city
and five Nicaraguan officials, involves a similar land
dispute in Nicaragua and the alleged the sale of meat in
the United States from confiscated farm animals, and also
alleges that the sovereign defendants collected rental
income from individuals in the United Sates. Jairo
Sequeira v. Republic of Nicaragua, et al., U.S. District
Court for the Central District of California, Case No.13CV-4332, ECF No.l95,p.3.

23a
Just like Horacio Sequeira alleges in this case, Jairo
Sequeira argued that the waiver, commercial activity,
expropriation, and tort exceptions applied to the
sovereign’s immunity under FSIA. Id. at p.4. The
California District Court disagreed and recently
dismissed Jairo Sequeira’s third amended complaint
against the sovereign defendants.3 Id. As to the waiver
3 The California District Court had previously dismissed
the Plaintiffs complaint as facially deficient. The Ninth
Circuit Court of Appeals reversed the dismissal, finding
that Jairo “was not required to produce such evidence in
response to a facial attack on subject matter
jurisdiction.” Jairo Sequeira v. Republic of Nicaragua, et
al., U.S District Court for the Central District of
California, Case No.l3-CV-4332, ECF No. 112, p.
2(emphasis
added). As discussed further below, a
factual attack on subject matter jurisdiction is different
from a facial attack and requires a court to consider
matters outside the pleadings because no presumption of
truthfulness attaches to the plaintiffs
allegations.
Lawrence v. Dunbar, 919 F.2d 1525, 1529 (11th
Cir.l990)(intemal citations omitted). Jairo later amended
his complaint, and defendants raised a factual challenge
to subject matter jurisdiction. Id. at ECF No. 195.

24a
exceptions, Jairo provided the Court with a written
contract that provided that Chinandega agreed to submit
to the jurisdiction chosen by Jairo Sequeira. Id. at 5. The
agreement was notarized by the Plaintiff in this action,
Horatio Sequeira. Id. The defendants there contended
that the agreement was fraudulent and filed affidavits
stating that no such agreement existed. Id. The Court
Found the agreement was invalid under Nicaraguan law,
and thus the waiver exception to FSIA immunity did not
apply. Id. at 7.
As to the commercial activity exception, the Court
found that Jairo Sequeira Presented no evidence that the
defendants sold his cattle as meat products in the United
States or that the defendants received rental profits from
individuals in the United States. Id. at 9,13. Thus
Sequeira failed to satisfy the commercial activity
exception. Id. at 13. Finally, as to the expropriation and
tort exceptions, the California federal district court
concluded that Jairo Sequeira failed to present any
evidence supporting his allegation that the defendant's
tortuous conduct occurred in the United States. Id. at 1314.
Defendants in the instant case point out that many of
the allegations added to Plaintiffs amended complaint
here were taken verbatim from Jairo Sequeira’s third
amended complaint, including that Jairo Sequeira’s
contract with the IDR was amended in 2005 to add an
arbitration provision and that illegal profits are being
used by Defendants to pay their “front men” in the United
States-! ECF No.89,p.7].

25a
II.

LEGAL STANDARD
Under the FSIA, foreign states are immune from
suit unless an FSIA statutory exception applies.
See 28 U.S.C. §§ 1603, 1604,1605; Mezerhane v.
Republica Bolivariana de Venezuela, 785 F,3d 545,
548 (11th Cir.2015).”If sovereign immunity exists,
then the court lacks both personal and subject
matter jurisdiction to hear the case and must enter
an order of dismissal.” De Sanchez v. Banco Cent.
De Nicaragua, 770 F.2d 1385, 1389 (5th
Cir.l985)(internal citations omitted). However, “[i]f
an exception does apply, the district court has
jurisdiction Butler v. Sukhoi Co., 579 F.3d 1307,
1312-13(llth Cir.2009) (citing 28 U.S.C. §1330
(a));4 see also Argentine Republic v. Amerada Hess
Shipping Corp., 488 U.S. 428, 434 (1989)(stating
FSIA provides “sole basis for obtaining jurisdiction
over a foreign state in [U.S] courts”).
To establish subject matter jurisdiction under
the FSIA, a plaintiff must overcome the
presumption that the foreign state is immune from
suit by producing evidence that “the conduct which
forms [the] complaint falls within one of the
statutorily defined exceptions.” S & Davis Inti,
Inc.v. The Republic of Yemen, 218 F.3d. 1292, 1300
(11th Cir.2000)(internal citations omitted). Once a
plaintiff demonstrates that one of the statutory

4
Section 1330 (a) provides that “district courts shall
have original jurisdiction without regard to amount in
controversy of any nonjury civil action against a foreign
state as defined in section 1603(a) of this title as to any
claim for relief in personam with respect to which the
foreign state is not entitled to immunity either under
sections 1605-1607 of this title or under any applicable
international agreement”.§1330(a).

26a
exceptions to FSIA immunity applies, the burden
then shifts to the defendant to prove by a
preponderance of the evidence that the plaintiffs
claims do not fall within that exception. See Butler,
:679'F:3dW1312-;13;=S^i9oUi^Jn.^r218=FT3d-at^
1300:---------------- ----------------------1------ -———
Attacks, on subject matter jurisdiction under
Federal Rule of Civil Procedure 12(b)(1) such as
under the FSIA, come in two forms: (1) ’’facial
attacks” on-, the complaint, which require the court
to draw all/reasonable inferences in favor of the
plaintiff to Tsee if the plaintiff has sufficiently
alleged a basis for subject matter jurisdiction; and
(2) “factual - attacks,” winch
“challenge the
existence of subject matter jurisdiction in fact” and
require the court to consider matters, outside the
pleadings because no presumption of truthfulness
attaches to plaintiffs allegations. Lawrence v.
Dunbar,
919
F.2d
1525,
1529
(11th
Cir.l990)(internalcitations omitted).
’
Here, Defendants factually attack the FSIA
exceptions that Plaintiff alleges in his complaint.
Plaintiff responded to the factual attacks with
evidence, i.e., affidavits and a purported contract>
filed in an.attempt to prove that the FSIA
exceptions apply. Accordingly, the Undersigned will
as
not
true. Instead, the Undersigned will “regard the
pleadings as mere evidence on the issue” of subject
matter jurisdiction. Trigeant Ltd. v. Petroleos de
Venezuela S.A., No. 08-80584-CIV, 2010 WL
11505968, at *10 (S.D. Fla. Jan. 5, 2010) ( internal
citation omitted) (emphasis added).

-

V'-

28a
The undersigned first considers whether Plaintiff has
presented evidence supporting the waiver exception to the
FSIA. This exception applies if “the foreign state has
waived its immunity either explicitly or by implication.”
§1605(a)(1). For purposes of the FSIA, a foreign state
expressly waives its right to immunity only where its
intent to do so is dear and unambiguous. Architectural
Ingenieria Siglo XXI, LLC v. Dominican Republic, 788
F.3d 1329, 1338 (11th Cir. 2015) (internal citations
omitted). Implicit waiver applies if “the foreign state
reveals its intent to waive its immunity by: (1) agreeing to
arbitration in another country, (2) agreeing that the law
of a particular country should govern a contract, or (3)
filing a responsive pleading in an action without raising
the defense of sovereign immunity. “Id. (internal
quotations omitted).
Upon review of Plaintiffs first complaint and the
parties’ submissions, the Undersigned determined that
the waiver exception did not apply because there was no
alleged agreement between Plaintiff and Nicaragua
and/or Chinandega, much less an agreement including a
provision that all disputes would be resolved in the
United States. [ECF No. 45, pp. 12-14].
Plaintiff then amended his complaint and added an
allegation stating that he did in fact enter into a contract
with IDR, alleged to be an entity of Nicaragua, regarding
raising cattle and selling meat in the United States and
that the contract "clearly revealed [IDS’s] intention to
waive its jurisdiction by agreeing to an international
arbitration in the U.S. A. under the DR-CAFTA’s rules or
under the ICSID’s rules or under any U.S.A. District
Court rides.” [ECF No. 79, If 45]. Plaintiff did not attach a
copy of this agreement to his amended complaint,
however.
Nicaragua and Chinandega then filed their motion to

29a
dismiss mid attached a declaration from Miguel Angel
Baca Jimenez, Legal Advisor of the Ministry of Family,
Community, Cooperative, and Associative Economy,
which is the custodian of records of EDR. [ECF No. 89-3,
pp. 4-5]. Baca states, under penally of perjury, that there
is no record of any contract between the IDR and Plaintiff
and/or Callejas. [ECF No. 89-3, p. 5]. He also states that
there
is no record of any model contract of the Institute
for Rural Development that includes an arbitration
clause selecting the International Centre for
Settlement of Investment Disputes [ICSID] as an
arbitral forum for the resolution of disputes, a
forum selection clause selecting the United States
as a forum for the resolution of disputes, or a
waiver of immunity in a foreign forum.
[ECF No. 89-3, p.5 (emphasis added)].
Additionally, the State Defendants submitted a
declaration in support of their motion to dismiss from
Maria Xiomara Mena Rosales, the Executive Director of
the Center for the Processing of Exports of the Republic of
Nicaragua, which keeps the records of all legal and
natural persons authorized to export goods, including
meat and meat products, from Nicaragua. [ECF No. 89-5,
p.4]. Mena states, under penalty of perjury, that she
conducted a search of all records from January 1, 2002 to
August 31, 2018, and there were no records of any export
found in the name of Plaintiff and that Plaintiff is not an
authorized exporter. [ECF No. 89-5, p.5]. Chinandega,
IDR, Callejas, and Nicaragua also do not appear as
authorized exporters. Id. Further, Mena states that only
registered industrial slaughterhouses may export beef,
and there are no slaughterhouses authorized to export
beef in the Department of Chinandega. Id.

30a
Subsequently, before filing his response in opposition to
the State Defendants’ motion to dismiss, Plaintiff sought
jurisdictional discovery and argued that he needed to
inspect Nicaragua’s record in light of its representation
that no such contract existed between IDR and Plaintiff.
[ECF No. 95, p. 11]. However, after the undersigned
denied Plaintiffs request for jurisdictional discovery,
Plaintiff filed his response in opposition to the State
Defendants’ motion to dismiss and attached what the now
says is a copy of a contract providing that Nicaragua
waived immunity from suit in the United States. [ECF
No. 119-1. pp. 30-40].
Plaintiff claims that the contract is an amendment to a
prior contract entered into on May 9, 1998. [ECF No. 1191, p. 10]. The purported contract is in Spanish, but the
State Defendants provided a certified translation of the
purported contract. [ECF No. 119-1, pp. 30-40; 124-1, pp.
11-16].
Because the State Defendants have factually attached
the existence of a waiver agreement under the FSIA,
Plaintiffs allegations in his amended complaint are not
presumed to be true, and the Undersigned must consider
the evidence presented by the parties and make factual
fin3ing«- See Trigeant, 2010 WL 11505968, at *10, see also
Comparelli v. Republica Bolivariana De Venezuela, 891
F.3d 1311, 1319 (11th Cir. 2018) (stating that “district
court must resolve relevant factual disputes” when
presented with factual challenge to jurisdiction under the
FSIA) (emphasis added).
Therefore, the Undersigned must make factual findings
about whether the State Defendants entered into a
contract with Plaintiff waiving immunity under the FSIA.
See Phoenix Consulting Inc. Republic of Angola, 216 F.3d
36, 41 (D.C. Cir. 2000) (remanding to district court to

31a

resolve factual dispute where sovereign defendant
presented evidence in support of its motion to dismiss
that written contract purporting to contain waiver
agreement was forged and that sovereign defendant never
agreed to waive immunity).
Hie Undersigned has considered Plaintiff’s first
amended complaint, along with the parties’ submissions,
in order to issue factual findings. As explained below, the
Undersigned finds that the agreement is not authentic
and that the signatory of the purported contract would
not have authority to waive immunity for the State
Defendants anyway.
First, the Undersigned finds the timing of Plaintiffs
submission of the purported contract to be highly suspect.
Plaintiff made no mention of this agreement in his first
complaint. After it was pointed out that there could be no
waiver by the State Defendants if there was no
agreement, Plaintiff added an allegation that there was
an agreement to arbitrate. When the State Defendants
produced and affidavit stating that there was no such
contract, Plaintiff requested jurisdictional discovery to
confirm this. When his request for discovery was denied, a
copy of the contract magically appeared.
Second, a cursory review of the language in the
agreement raises even more suspicion that the purported
contract is a sham. The title of the contract is
“Amendment of the Contract for the Breeding and
Development of Heavy Livestock and the Sale of
Livestock and Products Thereof within the United States
and Insertion of an Arbitration Clause.” [ECF No. 124-1,
p. 11], Other that the reference in the title to an
“amendment,” there is no mention of an original contract
anywhere in the contract, and the text of the agreement
does not specify which sections or terms of the original
agreement are being amended [ECF No. 124-1, pp. 11-16].

32a
Further, while there are vague references to the
number of cows on the El Pital property, there are no
dear terms in the contract regarding what the parties’
alleged agreement was and what consideration was
provided by each party. Rather, it appears that specific
details believed to satisfy exceptions under the FSIA or to
prevent dismissal were haphazardly compiled to form a
contract.
For example, there are a number of references to
producing livestock that would be sold “exclusively” in
Miami, Florida and that the export of the meat would be
to Miami, Florida only. [ECF No. 124-1, pp. 13-14]. It
seems highly unlikely that parties to an agreement
regarding cattle-raising in Nicaragua would limit the
export of the cattle meat to only once city; Miami.
The “arbitration” dause is also illogical. It provides:
Both parties agree to submit any legal dispute
resulting from the performance of this contract to
an Arbitration process... and in the event of a
disagreement with the Award given by said
arbitrators...both parties may file their daims in
Federal Court in Miami Florida or in an Arbitration
Court of the Central America-United States of
Am oricfl -Dominica Republic Free Trade Agreement
(CAFTA-DR) in the United States of America. Both
parties agree that everything related to this
contract is subject to the rules of the... CAFTA-DR
or to the laws of the United States of America.
[ECF No. 124-1, pp. 14-15]. It is unclear why the parties
would explidtly subject themselves to arbitration under
CAFTA or a “Federal Court in Miami Florida” when the
contract was allegedly entered into in Nicaragua relating

33a
to land and cattle in Nicaragua. It is also odd that the
parties would not specify what law of the United States
would apply, i.e., Florida Law or New York law, and that
there is no provision addressing what happens if the
parties cannot agree on whether they should arbitrate or
go to a “Federal Court in Miami Florida.”
There is also a provision in the so-called contract
stating that any subsequent agreement do not need to be
notarized. [ECF No. 124-1, p,15j. This appears to be in
response to the California federal court’s finding in Jairo
Sequeira’s case that the contract submitted was void
under Nicaraguan law because it was notarized by Jairo’s
brother, the Plaintiff here. Jairo Sequeira v. Republic of
Nicaragua, et al, U.S. District Court for the Central
District of California, Case No. 13-CV-4332, ECF No. 195,
pp. 6-7. The Undersigned also finds it suspicious that
Plaintiff was the notary for the contract submitted by his
brother, which was found to be void.
Based on the timing of the submission of the contract
and its terms, the Undersigned finds that the contract
purported to be between Plaintiff and the IDR is likely a
sham contract created by Plaintiff for the improper
purpose of preventing the dismissal of his case. However,
even if Plaintiff were able to demonstrate that the waiver
exception applied through the submission of the suspect
contract, the State Defendants have proven by a
preponderance of evidence that the waiver exception does
not apply. See Butler, 579 F.3d at 1312-13; S & Davis
Int% 218 F.3d at 1300.
The Undersigned finds compelling the declaration
submitted under penalty of perjury by Baca and Mesa,
stating that no such contract exists; that the IDR has no
similar model contract including any such arbitration
provision; and that Plaintiff, Chinandega, and Nicaragua

34a
are not registered exporters of beef to the United States.
Plaintiff has submitted no evidence to contradict these
declarations other than the contract, which appears to be
a sham contract created for the purposes of defeating
dismissal.
Further, as pointed out by the State Defendants, even if
the contract were authentic, the signatory for the IDR,
Mr. Guerra, who allegedly entered into the contract as
“Executive Director” of the livestock restocking program,
would not have authority to waive sovereign immunity on
behalf of the IDR or Nicaragua [ECF No. 124, pp. 5-6].
The State Defendants submitted declaration from a
Nicaragua constitutional law expert and lawyer, Dr.
Navarro, who stated that the “IDR was not authorized to
bind any person, any other decentralized institution,
Chinandega or any other municipality, or the Republic of
Nicaragua to any obligations to any third party, since it
only hat functional autonomy.” [ECF No. 89-10, p.24].
Navarro further states:
No provision of Law 290 authorizes the IDR to
waive sovereign immunity of the IDR, Chinandega
or any other municipality, or Nicaragua or to
submit any of those entities to the jurisdiction of a
• foreign court or arbitral institution. If the IDR were
to attempt to do so, it would be in violation of the
principle of legality of Article 130 of the
Constitution, Law 290 and its regulation, Decree
No. 71-98.
[ECF No. 89-10, p. 24].
Further, the provision in the contract stating that it
was “published in the official gazette with the consent and
ratification of the President of the Republic of Nicaragua
and the approval of the National Assembly” is outlandish

35a
considering it relates to a cattle-raising agreement for 200
heads of livestock. [See ECF No. 124-1, pp. 11-12] And
Navarro’s declaration provides that he was not aware of
any legislative or executive act waiving Nicaragua’s or
Chinandega’s sovereign immunity with respect to
plaintiffs claims here. [ECF No. 89-10, p.25J. Plaintiff has
provided no evidence to dispute this, such as the alleged
publication in the gazette. Surely, if the president and the
legislative branch of Nicaragua approved plaintiffs cattle­
raising contract, then there would be record of it
Somewhere.
Thus, even is plaintiff did enter into the purported
contract with Guerra, Guerra
Would not have authority to bind Nicaragua and
Chiriaadega and there could be no waiver of immunity.
See Packsys, S.A de C.V.v. Exportadora de sal, S.A. de
C.V., 899F.3d 1081, 1093(9th Cir. 2018) (finding there
was no waiver of immunity where signatory to agreement
lacked actual authority to enter into the contract).
Accordingly, the Undersigned finds that the waiver
exception to immunity under the FSIA is not satisfied
here.
u.

Commercial Activity Exception

Plaintiff also argues there is jurisdiction for this claims
against the state Defendants under the commercial
activity exception to the FSIA, (ECF No. 79, pp.11-18].
The commercial activity exception applies if
[1] the action is based upon a commercial activity
carried on in the United State by the foreign state,
or [2] upon an act performed in the United State in
connection with a commercial activity of foreign
state elsewhere; or [3] upon an act outside the

36a

territory of the United States in connection with a
commercial activity of the foreign state elsewhere
and that act causes a direct effect in the United
States.
$1605(a)(2).
Just like in Plaintiffs original complaint, Plaintiff
alleges in the first amended complaint that his property,
El Pital, and the livestock on it were illegally taken from
him, through action by Callejas, Troz, and the State
Defendants. Plaintiff includes some additional details,
likely in an attempt to satisfy the commercial activity
exception. Plaintiff claims that Callejas brings Plaintiffs
cattle from El Pital to the Chinandega slaughterhouse,
which is operated by the Chinandega Registry, where
Troz is Chief Registrar. [ECF No. 79, 154]. Nicaragua
then processes the meat and sells the beef in the United
State. [ECF No.79,154].
Plaintiff claims that some of the profits gained by
selling his cattle as meat product have been used “to pay
for the salary of their front men or straw men located in
the U.S.Ato commit illegal activities such as money
laundering}” and “Nicaragua and Chinandega have used
some attorneyUs trust accounts located in the U.S.A. to
commit such activities.”[ECF No.79,126].
Additionally, Plaintiff claims that Callejas sends
“monthly rental payments” from the United States to
Chinandega, [h]owever, he deducts from that payment
part of his salary that Nicaragua pays him as a front man
acting on Nicaragua’s behalf and for its benefits in the
U.S.A”[ECF No.79,168].
As discussed above, the State Defendants have
submitted declarations from Baca (custodian of records

37a
for the IDR) and Mena(Executive Director of Center for
the Processing of Exports of the Republic of Nicaragua)
providing that Nicaragua and Chinandega are not
registered exporters of beef to the United States and that
there are no slaughterhouses authorized to export beef in
the Department of Chinandega.[ECF Nos.p.5;89-5,pp.4-5].
Additionally, the State Defendants provided a
declaration from Aura Lyla Padilla Alvarez, the Mayor of
the Municipality of Chinandega, [ECF No.90-2, p.5],
Padilla state under penalty of perjury that Chinandega is
distinct from El Viejo, where El Pital is located, and that
Chinandega does not occupy, own, operate, or manage any
properties, including El Pital, in El Viejo; nor does it
receive rental payments for El Pital. [ECF No. 90-2,p. 7].
Further, Padilla states that she has reviewed municipal
records, and Chinandega does not engage in the sale of
the United States or operate slaughterhouse. [ECF No. 902,p.8].
Because the State Defendants have factually attacked
Plaintiffs allegations, the allegations in Plaintiffs first
amended complaint are not presumed to be true, and the
Undersigned must consider the evidence presented by the
parties and make factual finding. See Comparelli, 891
F.3d at 1319 (stating that “district court must resolve
relevant factual disputes” when presented with factual
challenge to jurisdiction under the FSIA).
The Undersigned has considered Plaintiffs first
amended complaint, along with the parties’ submissions,
and finds that Plaintiff has not demonstrated that the
commercial activity exception applies, and even if it did,
the State Defendants have proven by a preponderance of
the evidence that the claims do not fall within that
exception. See Butler, 579F.3d at 1312-13.

38a
A cursory review of plaintiffs allegations calls into
question their veracity as they are outlandish and appear
to be based purely on speculation, such as Plaintiffs
allegation that the State Defendants use money from the
sale of meat products for “money laundering'5 and
attorney's fees in the United States. Putting this aside,
Defendants have produced compelling evidence to refute
Plaintiffs allegations.
The Undersigned finds compelling the declarations
from Baca and Mena, which provide that Nicaragua and
Chinandega are not authorized to export beef to the
United State and that Chinandega does not have a
slaughterhouse. [ECF Nos. 89-3, p.5, 89-5 pp.4-5]. This is
further corroborated by Padilla, the Mayor of Chinandega,
who declares under penalty of perjury that Chinandega
does not have a slaughterhouse and does not sell beef in
the United State. [ECFNo.90-2pp.7-8]. The Undersigned
also finds compelling Padilla's declaration that
Chinandega has no connection to El Pital, which is
located in another municipality, and that Chinandega
does not receive rental proceeds from Callejas for the use
of El Pital. [ECF No. 90-2, p.7].
Plaintiff has not submitted any evidence that negates
these declarations, other than the sham contract
purporting to be a cattle-raising agreement between the
IDE and Plaintiff.
But even assuming that plaintiff s allegations were not
negated by the State Defendants’ evidence, Plaintiffs
allegations are nevertheless still insufficient to satisfy the
commercial activity exception.
As explained in the Undersigned’s earlier-issued report
and recommendations recommending dismissal of
plaintiffs first complaint, the illegal taking of Plaintiffs

39a

land and cattle in Nicaragua does not satisfy the
commercial activity exception [ECFNo.45,pp.l5-17]. The
illegal taking of Plaintiffs land and cattle is not a
commercial activity, and further, it was not carried out in
the Unite State, as is required under the first two prongs
of the commercial activity exception. See Beg v. Islamic
Republic of Pakistan, 353 F.3d 1323, 1325 (11th Cir. 2003)
(finding that “illegal taking7’ or expropriation does not
constitute commercial activity because it is an extension
of government power that is considered public in nature).
Additionally, Plaintiffs allegation that the is United
State Defendants are selling meat in the United States
that is derived from his illegally taken cattle does not
satisfy the commercial activity exception because it is not
the gravamen of Plaintiffs complaint. {ECF No. 45, p.17];
see OBB Personenverkehr AG v Sachs, 136 S CT. 390,395
(2015) (stating that the alleged commercial activity must
be equivalent to the gravamen of the complaint and that
rather than individuality analyzing each claim, the court
must zero in on the core of the suit to determine whether
exception applies). Plaintiffs explanation of what the
State Defendants allegedly do with the profits they
receive from the meat sales, i.e, for money laundering or
attorney’s fees, does not change the fact that the
gravamen of the complaint is the taking of Plaintiffs land
and cattle.
Further, Plaintiffs allegations still do not satisfy the
third prong under the commercial activity exception: “an
act outside the territory of the United State in connection
with a commercial activity of the foreign state elsewhere
and that act causes a direct effect in the United State”
$1605(a)(2) (emphasis added). A direct effect for purposes
of this prong is “an immediate consequence of the
defendant’s activity.” Guevara v. Republic of Peru, 608F.
3dl297 1309 (11th Cir. 2010).

40a
While the taking of Plaintiffs cattle may had direct
effect on Plaintiff who life in the United States, this loss
by Plaintiff does not satisfy the third prong. Araya
Solorzano v. Gov't of Republic of Nicaragua, 562 F.App’x
901,
904
(11th
Cir.
2014)(intemal
citations
omitted) (“Mere financial loss by a person —individual or
corporate—in the U.S. is not, in itself, sufficient to
constitute a ‘direct effect’”). Again, the alleged sale of
meat in the United States is an indirect effect of the
taking of Plaintiffs cattle, as are the profits from the sale
of this meat, such as those alleged to be used for money
laundering and attorney’s fees.
To the extent Plaintiff argues that the alleged breach of
the cattle raising contract constitutes commercial activity
under the FSIA, as discussed above, the cattle raising
contract submitted by Plaintiff appears to be a sham
document created for the purposes of defeating dismissal
here and has been refuted by the State Defendants.
Regardless, again even if by Plaintiffs allegation is that
Nicaragua is not sharing profits from beef sales in the
United State as required by the contract, Plaintiffs core
complaint remains that his property and the cattle raising
agreement) was illegally taken from him.
Accordingly, Plaintiff has not demonstrated that the
commercial activity exclusion applies here.5
5 Unlike Plaintiffs original complaint, Plaintiff does not
appear to argue that the expropriation and tort exceptions
to the FSIA apply here. Thus, the Undersigned will not
consider these exceptions in detail. However, the
Undersigned notes that Plaintiff has not alleged any new
facts or presented any new evidence that would satisfy
these exceptions, which were previously found by the
Undersigned not to apply. [See EOF No. 45, pp. 18-26]. As

41a
Thus, because there is no subject matter jurisdiction
under the FSIA against the State Defendants, the
Undersigned recommends that judge Martinez dismiss
the claims against the State Defendants.
b. Subject
Matter
Jurisdiction
for
Individuals Callejas and troz.
Because there is no subject matter jurisdiction under
the FSIA for Plaintiffs claims against the State
Defendants, there is no remaining basis for federal
question jurisdiction for Plaintiffs claims against Callejas
and Troz given that the claims all arise under state law.6
Thus, for the court to have jurisdiction must be present.
Diversity jurisdiction over the individual defendants,
diversity jurisdiction must be present. Diversity
jurisdiction requires complete diversity, meaning that
every plaintiff must be diverse from every defendant.
Triggs v. John Crump Toyota, Inc, 154F.3d 1284,1287
(11th Cir. 1998).
Plaintiff alleges that he is a resident of Florida and
Callejas is resident of Florida.[ECFNo.79, H 31,40].
Thus, because Plaintiff and Callejas are both Florida
residents, complete diversity does not exist, and the
Undersigned therefore also recommends that Judge
Martinez dismiss the claims against Callejas and Troz.7

to expropriation, Plaintiff has attempted unsuccessfully to
tie the State Defendants into what appears to be a
contract dispute with Callejas. Plaintiffs purported
6 In fact, the Undersigned notes that Plaintiff does not
actually bring any counts against Troz in his first
amended complaint.
7 Because there is no jurisdiction over Callejas, The
Undersigned will not address Calleja’s argument that

42a
IV. CONCLUSION
Accordingly, because there is no subject matter
jurisdiction over the State Defendants and no diversity
jurisdiction over the individual defendants, the
Undersigned respectfully recommends that the
District Court grant Defendants’ dismissal motions and
dismiss Plaintiffs first amended complaint for lack of
subject matter jurisdiction without prejudice. See Stattey
ex reL U.S. v, Orlando Reg% Healthcare Sys.Jnc.,524F.3d
1229,1232(llth Cir.2008)(“A dismissal for lack of subject
matter jurisdiction is not a judgment on merits and is
without prejudice.”).
V.

OBJECTIONS

The parties will have fourteen (14) days from the date
of being served with a copy of this Report and
Recommendations within which to file written objections,
if any, with United States District Judge Jose E.
Martinez. Each party may file a response to the other
party’s objection within fourteen (14) days of the
objection. Failure to file objections timely shall bar the
parties from a de novo determination by the District
Judge of an issue covered in the report and shall bar the
parties from attacking on appeal un objected-to factual
and legal conclusions contained in this report except upon
grounds of plain error if necessary in interest of justice.
See U.S.C. § 636(b)(1);
Thomas v am, 474 U.S. 140,149(1985); Henley v.
Johnson, 885F.2d 790, 794 (1989); 11th Cir.R.3-l(2016).

Callejas’s alleged breach of contract in 2008 would be
statutorily time barred. [ECF No. 84, pp. 1-2].

43a
RESPECTFULLY RECOMMENDED, in Chambers,
Miami, Florida, on February 14, 2019.
Jonathan Goodman
UNITED STATES MAGISTRATE JUDGE
Copies furnished to:
The Honorable Jose E. Martinez
All Counsel of record
Horacio Sequeira
13280 Port Said Road
C301
Opa-Locka, FL 33054

44a
APPENDIX D
UNITED STATES DISTRICT OF FLORIDA COURT FOR
THE
SOUTHERN DISTRICT OF FLORIDA
Miami Division
Case Number: 16-25052-CIV-MARTINEZ-GOODMAN
HORACIO SEQUEIRA,
Plaintiff,
VS.
THE REPUBLIC OF NICARAGUA, et al.,
Defendants.
AND
REPORT
ADOPTING
ORDER
RECOMMENDATION
THIS MATTER was referred to magistrate Judge
Jonathan Goodman for a ruling on all pre-trial non
dispositive matter, and for report and recommendation on
al dispositive matters [ECF Nos. 5] plaintiffs complaint
was previously dismissed for lack of federal subject
matter jurisdiction [ECF Nos. 57, 69]. On August 8, 2018,
Plaintiff filed bis first Amended Complaint [ECF No.
. 79].Defendants Eduardo Jose Callejas ("callejas"),
Estrellita del Carmen Troz Martinez ("Troz"), the
Republic OF Nicaragua and City of Chinandega
(collectively, "Defendant") filed their motions to
dismiss [ECF Nos. 84, 87, 89]. Magistrate Judge Goodman
subsequently
filed
an
omnibus
report
and
recommendation on defendants' Motions to Dismiss First
Amended Complaint [ECF No. 126] (hereinafter
"Omnibus Report and Recommendation"), recommending
that this Court: (1) grant Defendants' motions to dismiss
[ECF Nos. 84,87,89]; (2)dismiss Plaintiffs First Amended
Complaint without prejudice; (3) find that Defendants
Republic of Nicaragua and City of Chinandega are

45a
sovereign Defendants immune from suit, and, therefore,
this Court lacks federal question jurisdiction; and (4) find
that this Court lacks subject matter jurisdiction over
Defendants CALLEJAS and TROZ based on lack of
diversity jurisdiction.
Plaintiff then moved to stay his objections to
Magistrate Judge Goodman's Omnibus Report and
Recommendation or, in the alternative, for and order
enlarging the time for him to file objections [ECF No.
127J. This Court denied plaintiff's request to stay the
filing of this objections to the Omnibus Report and
Recommendation but granted Plaintiff's motion for an
extension of time to file his objections and ordered him to
file his by March 15, 2019 [ECF No. 130]. Plaintiffs
objections were timely filed on March 15, 2019 [ECF No.
132, at 1], Defendants Republic of Nicaragua, City of
Chinandega, and Troz filed a "Statement...Concerning
Magistrate Judge's Recommendation that the court
dismiss Plaintiffs Amended Complaint 'Without
Prejudice'" (the "Statement") [ECF No. 128], stating that
this Court should clarify that any dismissal without
prejudice of plaintiffs action should be '"Without
prejudice' to refilling in a court of competent jurisdiction
outside of the Unite States, if there is one" [ECF No,. 128,
at 3]. Defendants Republic of Nicaragua, City of
Chinandega, and Troz also filed a response to plaintiffs
objections [ECF No. 134].
The Court has reviewed the entire record, has made
a de novo review of the issues that Plaintiffs objections to
the Omnibus Report and Recommendations [ECF No.
132] l1 and Defendants Republic of Nicaragua, City of
The Court did so notwithstanding the fact that
Plaintiffs objections can be stricken because he filed
objections in excess of twenty (20) pages in violation of
Rule 4(b) of the Magistrate Judge Rules. M.J.R. 4(b). Rule

46a
Chinandega, and Troz's Statement present [ECF No. 128],
and is otherwise fully advised in the premises.
Plaintiffs Objections
After a de novo review of Plaintiffs objections, this
Court finds them to be without merit and largely
conclusory in nature, failing to adequately address the
factual and legal findings contained in Magistrate Judge
Goodman's Omnibus Report and Recommendation.
Namely, plaintiff fails to adequately address the factual
findings made by Magistrate Judge Goodman that led
him to the conclusion that Plaintiffs contract was a
"sham contract created by plaintiff for the purpose of
defeating dismissal of his complaint"[ECF No. 126, at 1314]. Rather, plaintiff claims that Magistrate Judge
Goodman failed to consider or ignored his submissions,
such as the declaration of Mariano Guerra [ECF No. 75], a
declaration that includes no certified translation.2
with respect to plaintiffs other submissions, a note by
Defendants Republic of Nicaragua, City of Chinandega,
and Troz in their response to the objections, it does not
appear that the 'ILLESCAS' expert witness's declaration"
and "Alvarez declaration" are apart of the record in this
matter Accordingly, this Court finds that Plaintiffs
objections, it does not appear that the "Illescas' expert
witness's declaration" and "Alvares declaration" are apart

4(b) provides in relevant part that “[a]bsent prior
permission from the Court, no party shall file any
objections or responses to another party’s objections
exceeding twenty (20) pages in length.”
2 Assuming the translation provided by Plaintiff is
accurate, the Court finds it highly suspect that Guerra
makes no mention of the 2005 amendment in his
purported declaration.

47a
of the record in this matter. Accordingly, this Court finds
that plaintiffs contract is sham.3
Moreover, plaintiff also fails to adequately address
Magistrate Judge Goodman’s finding that even if the
contract was authentic, “The signatory of the purported
contract would not have authority to waive immunity for
the State Defendants anyway"[ECF No. 126, at 18].
Plaintiffs objection to this finding are all conclusory in
nature [ECFNo. 132, at 12]. For example, plaintiff states
that not authorization of the contract at issue is needed
because once it is signed by a government official, “it
automatically becomes a public instrument.” Id, in this
regard, Plaintiff wholly fails to address the Magistrate
Judge Goodman's findings as they relate to the
declaration of Dr. Karlos Navarro, a Nicaraguan
constitutional law expert and lawyer [ECF No. 126, at 21].
Accordingly, after careful consideration, this court
overrules plaintiffs objection.4
Defendants Republic of Nicaragua, City of Chinandega,
and Troz’s Statement

3 Notably, as Magistrate Judge Goodman so eloquently
put it, “it appears that specific details believed to satisfy
exceptions under the FSIA or to prevent dismissal were
haphazardly compiled to form a contract” [ECF No. 126,
at 19]. Upon reviewing the contract [ECF No. 124-1], this
Court agrees.
4 To the extent that Plaintiffs objections were not
specifically addressed herein, such objections are
overruled for the reasons stated in Magistrate Judge
Goodman’
well-reasoned
Omnibus
Report
and
Recommendation.
1

48a
In their Statement, Defendants Republic of Nicaragua,
City of Chinandega, and Troz request that this Court
adopt Magistrate Judge Goodman's Omnibus Report and
Recommendation and 'state that Plaintiffs amended
complaint is dismissed without prejudice to Plaintiff
attempting to reassert his claims' against them "in a
jurisdiction outside of the United States" [ECF
No.l28,at7]. This Court has reviewed Defendants
Republic of Nicaragua, City of Chinandega, and Troz's
Motions to Dismiss (ECF No.87,89],which both seeks
of Plaintiffs First Amended Complaint with
prejudice. "Courts in other jurisdiction have noted that
the decision of a Magistrate Judge' should not be
disturbed on the basis of arguments not presented to'" the
Magistrate Judge. Papapanos v. Lufthansa German
Airlines, No.94-2667,1996 WL 33155438, at *11
(S.D.Fla.Apr. 16,1996) (citing cases);see also Topp, Inc. v.
Uniden Am. Corp, 483 F.Supp.2d 1187,1190 (S.D. Fla.
2007). "This rule is based upon the same concept which
prevents parties from arguing in the appellate courts
issues and arguments not raised below." papapanos, 1996
WL 33155438, at *11. Accordingly, this court declines to
supply the additional language these defendants seek to
include to a dismissal without prejudice by this Court.
Thus, after careful consideration, it is ORDERED and
ADJUDGED that Magistrate Judge Goodman's Omnibus
Report and Recommendation [ECF No. 126]. is
AFFIRMED and ADOPTED. Plaintiffs objections [ECF
No. 132] are hereby OVERRULED. Accordingly, it is
1. Defendants' motion to dismiss [ECF Nos. 84, 87, 89] are
GRANTED.
2. Plaintiffs First Amended Complaint is DISMISSED
without prejudice.
3. This court finds that Defendants Republic of Nicaragua
and City of Chinandega are sovereign defendants immune

49a
from suit, and therefore, this court lacks federal question
jurisdiction.
4. Accordingly, this court lacks subject matter jurisdiction
over Defendants Callejas and Troz based on lack of
diversity jurisdiction.
5. This case is CLOSED and all pending motions are
DENIED as MOOT.
DONE AND ORDERED in Chambers at Miami, Florida ,
this 29th day of March, 2019.
JOSE E MARTINEZ
UNITED STATES DISTRICT JUDGE
Copies provided to:
Magistrate Judge Goodman
All Counsel of Record
Horacio Sequeira, pro se

50a
APPENDIX E
TRANSLATION
CONSTITUTION

EXHIBIT

A

NICARAGUAN

LEGAL NORMS OF NICARAGUA
Subject:
Constitutional and other Fundamental
Standards
Rank: Political Constitution of Nicaragua
Approved on November 19, 1986
Published in La Gaceta, Official Gazette No. 05 of
January 9, 1987
THE PRESIDENT OF THE REPUBLIC
Let the people of Nicaragua know that the National
Constituent Assembly has consulted with the people,
discussed and approved the following Political
Constitution:
FIRST: WE, Representative of the People of Nicaragua,
gathered in the National Constituent Assembly
SAYING THAT The Struggle of our indigenous ancestors.
The spirit of Central American unity and the combative
tradition of our people, inspired by the example of
General JOSE DOLORES ESTRADA...
Art. 15. Qualifications to be a Minister, Deputy Minister,
President or Director of entities autonomous or
Governmental and Ambassadors.
To be a Minister, Deputy Minister, President or Director
of Autonomous and Governmental entities and
Ambassadors, the following qualities are required:
1. Be a national of Nicaragua, pursuant to Article
152, paragraph 1, of the Political Constitution.
2. Be in full enjoyment of their political and civil
rights.
3. Having turned twenty-five years of age...

51a
Article 16. Ministerial functions the Ministerial
Functions are the following:
To Comply and enforce the provisions established by
law.
b. Formulate and propose to the president of the
Republic the policies of the ministerial sector
correspondent.
c. Formulate and propose to the President of the
Republic the preliminary draft laws, decrees,
regulations, agreements, resolutions and orders;
endorse the decrees and orders of in accordance
with the provisions of article 151 of the Political
Constitution.
d. Formulate, propose, coordinate and direct the work
plans and budgets the ministry and the entities to
positions in their sector and Channel through the
competent body the requests and negotiations related
to cooperation technical and financial aspects of the
ministry and sector, drafting, preparing, authorizing,
ratifying, and or adherence to agreements and other
international legal instruments.
Arto. 151. The President of the Republic determines
the number, organization and competence of the
Ministers and Presidents or Director of
autonomous and governmental entities enjoy
immunity.
The undersigned in the witness of thereof sworn that
the translation is true and correct. And signed in the
state of Florida at July 5, 2019.
Signed by Horacio Sequeira

52a
APPENDIX F
Translation Decree 1-90
DECREE-LAW No. 1-90, Approved on April 25, 1990
Published in La Gaceta, Official Gazette No. 87 of May 8,
1990
The President of the Republic of Nicaragua in regard to
the powers conferred by Article 151 of the Political
Constitution,
Considering:
In Order to Comply with the Government Program, it is
essential to restructure the Executive Power to adapt it to
the economic, political and social realities of the country
in order to democratization and integral development.
Decree: The following Organization of State Ministries
Chapter I
Of the Ministries of State
Article 1.- The Ministries of State will be the following:
Ministry of the Interior.
Ministry of the Exterior
Ministry of Defense
Ministry of Education
Ministry of Agriculture and Livestock
Ministry of Economy and Development
Ministry of Construction and Transport
Ministry of Health
Ministry of Labor
Ministry of Presidency
Chapter VII
From the Ministry of Agriculture and Livestock
Article 8.- Te Ministry of Agriculture and Livestock
Shall have the following attribution:

53a
5. Promote the Industrialization and
commercialization of agricultural product
6. Obtain economic aid and international technical
assistance for the development or their plans and
programs.
7. Without prejudice to everything contained herein, all
functions and. attributions are assumed, laws and decrees
have been established for the Ministry of Agricultural
Development, of which this Ministry will be legitimate
successor without continuity solutions.
8. The others established by laws and decrees
Article 2,- For each State Ministry, the president of the
Republic shall appoint a Minister and the Vice-Ministers
that he deems appropriate.
The undersigned in the witness of thereof sworn that the
translation is true and correct. And signed in the State of
Florida at July 5, 2019
Signed by Horacio Sequeira

54a
APPENDIX G
MODIFICATION OF CONTRACT, DEVELOPMENT OF
LIVESTOCK
AND
COMMERCIALIZATION
OF
LIVESTOCK AND THE SAME WITHIN THE UNITED
STATES AND INSERTION OF ARBITRATION
CLAUSE.
In the city of Managua at three o’clock on the afternoon of
the nine of December of two thousand and five, meeting at
the home of Mr. Reynaldo Aguado Montealegre, Mr
Horado Ramon Sequeira Argenal, hereinafter referred to
as "Mr. Sequeira” and Mariano Guerra Morales from now
on referred to as the “Mr. Guerra” both of legal age,
Married, Merchants of the domicile of Managua. Mr.
Sequeira says to act in his own name and representation
and Mr. Guerra expresses that he acts on behalf of the
Rural Development Institute known as (DDR) whose
entity is an instrumental body of the Republic of
Nicaragua. Mr. Guerra expresses being the Executive
Director of the cattle repopulation program, whose
representation of Mr. Guerra is authorized by the
Ministry of Agriculture and Livestock according to decree
1-90 of 1993 and in that capacity acts in favor of
Nicaragua, says Mr. Horacio Ramon Sequeira Argenal,
and demonstrates Mr. Guerra according to the
documentation presented, which gives him the Legal
Capacity and authority to sign this contract, which shows
as certified bt the Attorney General of the Republic of
Nicaragua, published in the official gazette and after
having received the consent and ratification of the
President of the Republic of Nicaragua, and with the
approval National Assembly. Mr. Sequeira says, and it
demonstrates in accordance with the original public deed
which expresses the following; FIRST ; That he owns the
domain and possession of 95 percent and the remaining 5
percent in favor of his son Horacio Ramon Sequeira

55a

Alvarez, of a property located in the sector of the congo, El
Viejo, Registered in favor of Mr. Horatio Ramon Sequeira
Argenal, in the public Registry of real estate in the
department of Chinandega, under registry numbers
33905, 2nd Seat, Folios 94, 95, of Volume 161, of the
property registry. The aforementioned property is known
as El Pital of five hundred manzanas of surface area
equivalent to approximately one thousand acres, which is
valued at one thousand dollars per manzanas or five
hundred dollars per acre of land. SECOND: Both declare
that, within said property there are two hundred and fifty
heads of cattle among the sixty-eight heads of Brahman
breed, White and Red, belong to the Institute of Rural
Development, destined for production and export to the
United States of America. Among the prayers given to Mr.
Sequeira there are three purebred Pardo Brahman bulls,
The Big Cattle Lot is valued at seventy-five thousand and
five hundred dollars, which were given to Mr. Sequeira for
production and marketing to the United States, the
purpose of both it is apparent that the seventy-eight
recesses are owned by the IDR and Mr. Sequeira at a rate
of fifty-five percent for the IDR and forty-five percent in
favor of Mr. Sequeira, the offspring are for production and
export of meat in the United States, the City of Miami.
THIRD: Mr. Guerra says that on behalf of the IDR and on
behalf of the Republic of Nicaragua as Minister, he
commits to give veterinary care to said cattle in favor of
Nicaragua and with due knowledge and ratification,
through his team periodically and that the object of cattle
production is to market it to the United States,
exclusively in the City of Miami Florida. Continues Mr.
Guerra expressing his commitment that together with Mr.
Sequeira coordinate the export with the authorities of the
government of Nicaragua. Also Mr. Guerra on behalf of
the IDR and as Minister in representation of the Republic
of Nicaragua, agrees to give him forty-five percent of the
profits for the export of said cattle to Mr. Sequeira. Mr..

56a
Sequeira accepts the 78 reces of cattle that are already
inside the property El Pital and that is owned by Mr.
Sequeira and accepts that the production of said cattle
will be destined exclusively for commercialization in the
United States, in Miami Florida, QUARTER: This
contract will be renewable and subject to the consent of
the parties, at any time, to extend and modify clauses by
mutual agreement, leaving the previous contract with
additional clauses. Both parties will have a period of
twenty years to file the claim for breach of contract
without prescribing the civil action.
FIFTH:
ARBITRATION. Both parties jointly agree to submit any
legal dispute that results from the fulfillment of this
contract to an arbitration process, whose arbitrators will
be appointed by the authorities of the jurisdiction where
the arbitration process takes place, and the Award issued
by said arbitrators, regarding compliance of the obligation
of this contract, in case of disagreement under 3267 c. of
this contract both parties may exercise their claims in a
Federal Court in Miami Florida or in a Court of
Arbitration of the Treaty of the Republic of Nicaragua,
agrees to give him forty-five percent of the profits for the
export of said cattle to Mr. Sequeira. Mr. Sequeira accepts
ihe 78 reces of cattle that are already inside the property
El Pital and that is owned by Mi\ Sequeira and accepts
that the production of said cattle will be destined
exclusively for commercialization in the United States in
Miami Florida, QUARTER: This contract will be
renewable and subject to the consent of the parties, at any
time, to extend and modify clauses by mutual agreement,
leaving the previous contract with additional clauses’.
Both parties will have a period of twenty years to file the
claun for breach of contract without prescribing the civil
action. Fifth: ARBITRATION. Both parties jointly agree
to submit any legal dispute that results from the
fulfillment of this contract to an arbitration process,
whose arbitrators will be appointed by the authorities of

57a
the jurisdiction where the arbitration process takes place,
and the Award issued by said arbitrators, Regarding
compliance of the obligation of this contract both parties
may exercise their claim in a Federal Court in Miami
Florida or in a Court of Arbitration of the Treaty of Free
Trade Central America- United States of AmericaDominican Republic(CAFTA-DR) in the United States of
America, which one filed in the court against the state of
Nicaragua or Mr. Sequeira, is interrupted the prescription
of this contract in accordance with Article 930 of the civil
code of Nicaragua and whose arbitrators shall be
appointed by the authorities of that body pursuant to
Article 958 et seq. of the code of civil procedure of the
Republic of Nicaragua(Pr). By common agreement both
parties accept that everything related to this contract is
subject to the rules of the Central America-United States
of American -Dominican Republic Free Trade Agreement
(CAFTA-DR) or the laws of the United States of America.
According to Decree 4371 of the National Assembly of
Nicaragua Gaceta 199 of October 14, 2005, Both agree
that any subsequent agreement must be made in writing
and it will not be necessary to draft them by means of a
public deed since Mr. Guerra according to the laws of
Nicarargua, this contract will have the character of a
public document because of his position as Minister of the
Republic of Nicaragua and as director of the IDR. The fact
that Mr. Sequeira initiated a lawsuit in Nicaragua
involving the cattle does not mean that Mr. Sequeira can
not initiate another lawsuit against the Republic of
Nicaragua the United States of America, The main is the
commercialization of cattle in the City of Miami in the
United States of America. SIXTH: Mr. Guerra, says he
accepts this contract on behalf of the Rural Development
Institute (IDR) with due authorization of the President of
Nicaragua and the Ministry of Industry and Trade
Promotion(MIFIC) expressing the consent, direct
knowledge of the parties, its beneficiaries and in the

58a

terns and conditions previously described and related.
This contract is in three original copies, one copy will be
kept by Mr. Sequeira and another copy will be kept by Mr.
Guerra in the private confidential files of the IDR, and in
the files of the Executive representing the Republic of
Nicaragua, which as a public document is ratified by the
Minister of the Republic of Nicaragua and because it is
confidential and private. The both parties expressed that
they ratify and sign the present contract in the City of
Managua on the ninth day of the month of December of
the two thousand and five.
Signed by, Horacio Ramon Sequeira Argenal
Cedula No.001-230861-0058B
Signed by, Mariano Guerra Morales
Minister and Executive Director. IDR
ID. No.66h260647>0000W

59a
APPENDIX H
LEASE RENEWAL AGREEMENT WITH OPTION TO
PURCHASE THE COMMERCIAL PROPERTY OF EL
PITAL AND VENTURE CAPITAL AGREEMENT FOR
THE COMMERCIALIZATION OF LIVESTOCK AND
PRODUCTS WITHIN THE UNITED STATES.
In the City of Miami Florida at eleven o’clock in the
morning of the eighteen days of January of the year two
thousand eight, Mr. Horado Ramon Sequeira Argenal,
referred at times in this agreement as Mr. Sequeira,
Eduardo Jose Cailejas Callejas and Milagros E. Callejas,
referred at times in this agreement as “The Callejas” all
adults, married, merchants, domiciled in Miami Florida,
United States of America. The first contracting party, Mr.
Horacio Ramon Sequeira Argenal,: states: FIRST that he
has dominion, control, possession and is the owner of
ninety percent (95%) percent of land El Pital, and the
remaining five percent (5%) is owned by his son Horacio
Ramon Sequeira Argenal Alvarez, of a real property
located in the sector of the congo, El Viejo, registered in a
favor of Mr. Horacio Ramon Sequeira Argenal, in Public
Registry of real property record, in the department of
Chinandega, under registry numbers 33905, 2nd seat,
pages 94, 95, of Volume 161, of the real property public
registry, the aforementioned property known as El Pital
of five hundred square blocks of surface area equivalent of
one thousand acres, which is valued at one thousand
dollars per square block or five hundred dollars per acre
of land, within said property there are four hundred and
seventy head of cattle. Red and white Brahman, sixty of
these cows belongs to the Institute of Rural Development.
Ten bulls Raze Jersey valued at fifteen thousand dollars
each, which belongs to Mr. Sequeira, are handed to Mr.
Callejas, for administration and exportation. All the
cattle, the offspring are for production and export of meat

60a
to the United States in the City of Miami, also Mr.
Sequeira give the property to Callejas for administration
and with option to buy such property in one thousand
dollar per square block. SECOND: Mr. Eduardo Jose
Callejas Callejas and Mrs. Milagros E. Callejas, say they
commit to raise the cattle handed to them by Mr.
Sequeira in Nicaragua for the purpose and intent to
commercialize it in the United States, exclusively in the
City of Miami Florida, together with Mr. Horacio Ramon
Sequeira Argenal. Also “The Callejas” agreed to purchase
El Pital property from Mr. Horacio Ramon Sequeira in the
amount and price of one thousand dollars each block of
land of said property, which will be paid in installments
for a period of approximately of ten years. The cattle that
are inside said property are property of Mr. Horacio
Ramon Sequeira Argenal and will be destined exclusively
for the commercialization of said cattle in the United
States, in Miami Florida, with help of Mr. Luis Callejas
Callejas, brother of Mr. Eduardo Jose Callejas Callejas. In
this act and in consideration for this agreement, Mr.
Eduardo Jose Callejas Callejas, together with Mrs.
Milagros E, Callejas pay Mr. Sequeira the amount of six
thousand dollars, as an advance to the option to purchase
said property known as El Pital. THIRD: This contract is
valid, when the Callejas make their first payment. The
contract is automatically renewable when any payment is
made in the future, to extened and modify clauses by
mutual agreement. This contract does not cancel previous
contracts. FOURTH: In the event of a material breach of
this contract, the parties will have a period of thirty years
to file any-claim for said breach of contract or ten years
pursuant to the Nicaragua civil code articles 905 and 906
to file any civil action related to the breach of *hi«
contract. FIFTH: In the event of any dispute for breach of
this contract, the parties to this contract shall have the
right to bring suit in any Federal, State or Administrative
Court in Miami Florida, United States of America, which

61a
once the suit is filed in any court against Mr. Eduardo
Jose Callejas Callejas, the statute of limitation is
suspended. Also in case of filing suit against Mr. Eduardo
Jose Callejas by Horacio Ramon Sequeira Alvarez, who
owns five (5) percent of the El Pital property, the statue of
limitations gets suspended. In the event that any claim is
initiated in another jurisdiction in which part of the el
Pital property is involved would not preclude Mr. Horacio
Ramon Sequeira Argenal to file suit in any court in the
United States, especially the city of Miami Florida, since
it is where the products resulting from El Pital property
will be exclusively marketed. SIXTH: In the event of a
breach of this contract, the parties may request a court to
issue an order to place a lien against the property or
properties of the breaching party whether these
properties are located inside or outside in the United
States, or even if these properties are held in community
with their spouse or another family member, within the
fourth degree of consanguinity and second of affinity.
SEVENTH: Mr. Eduardo Jose Callejas Callejas and Mrs.
Milagros E. Callejas and Mr. sequeira, agree and accept
the present renewal of this contract in the terms and
condition previously described and related above. This is
how the parties expressed, ratify and sign the present
contract in the City of Miami on the eighteenth day of the
month of January of the year two thousand and eight. Mr.
Eduardo Jose Callejas Callejas signed this agreement on
his behalf and on behalf his spouse, Mrs. Milagros E. De
Callejas, whom has consented that all payments are to be
with joint bank account she has with Mr. Eduardo Jose
Callejas Callejas. All payments will be made exclusively
in the City of Miami in a favor of Mr. Horacio Sequeira.
Signed By: Horacio Ramon Sequeira Argenal and
Eduardo Jose Callejas Callejas

j

